 



    NATIONAL INSTITUTE
    OF STANDARDS AND
    TECHNOLOGY




    Oversight Activities of
    NIST’s Recovery Act
    Construction Grant
    Awards Are Generally
    Effective but Need
    Improvements



    FINAL REPORT NO. OIG-12-020-A
    FEBRUARY 14, 2012



    U.S. Department of Commerce
    Office of Inspector General
    Office of Audit and Evaluation


    FOR PUBLIC RELEASE



 
                                                       UNiiED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       W ashington. D.C. 20230




 February 14, 20 12

 MEMORANDUM FOR:              Dr. Patrick Gallagher
                              Under Secretary of Commerce for Standards and Technology




FROM:
                              :::i:·::~~:J:d·a·nd /J/~
                              Principal Assistant Inspector General for Audit and Evaluation

SUBJECT:                      Oversight Activities of NIST's Recovery Act Construction Grant
                                  Awards Are Generally Effective but Need Improvements
                              Final Report No. 0/G-12-020-A

We are providing our final audit report on the effectiveness of NIST's oversight and activities to
manage American Recovery and Reinvestment Act (Recovery Act) awards given through the
NIST construction grant program. Our audit objectives were to (I) determine the adequacy of
policies and procedures developed for Recovery Act construction awards; (2) determine
whether NIST has the personnel, processes, and systems in place to monitor the program; (3)
assess the adequacy of monitoring activities; and (4) determine whether the construction
projects have proceeded according to their original proposals.
Although NIST has established its construction grant program, improvements are necessary.
We found that policies, procedures, and monitoring activities, while generally effective, need
strengthening. Specifically, we found inadequate internal controls led to awards administration
and oversight concerns, construction projects in jeopardy of not being completed on time, and
noncompliance with Recovery Act provisions such as the Buy American Act.
We have received your response to our draft report. Where appropriate, we have modified
this final report based on this response and discussions with NIST subsequent to the issuance
of the draft report. The formal NIST response is included as appendix C. (We summarized your
response, and OIG comments, starting on page 17.) The final report will be posted on the
OIG's website pursuant to section 8L of the Inspector General Act of 1978, as amended.
In accordance with the Department Administrative Order 213-5, within 60 days of the date of
this memorandum, please provide us with an action plan that responds to all of the report
recommendations.
We would like to express our thanks to your staff for the courtesies shown to us during our
review. Please direct any inquiries regarding this report to Johnny Dawsey, Auditor Manager, at
(404) 730-2056, or Rebecca Leng, Senior Advisor, at (202) 482-8294, and refer to the report
title in all correspondence.
Attachment

cc:	 Rachel Kinney, Audit Liaison, NIST
     David Robinson, Associate Director for Management Resources, NIST
     Michael Herman, Executive Officer for Administration, NIST
     George E. Jenkins, Chief Financial Officer, NIST
     Stella S. Fiotes, Chief Facilities Management Officer, NIST
     Usha Ganti, Chief, Grants and Agreements Management Division, NIST
                                             Report In Brief                                            F E B R U AR Y 1 4 , 2 0 1 2




Background                               NATIONAL INSTITUTE OF STANDARDS
The American Recovery and Rein-          AND TECHNOLOGY
vestment Act of 2009 (the Recov-
ery Act) appropriated $360 million       Oversight Activities of NIST’s Recovery Act
to NIST to construct research fa-        Construction Grant Awards Are Generally
cilities, including $180 million in
competitive grants for the construc-     Effective but Need Improvements
tion of research science buildings.      OIG-12-020-A
NIST’s competitive grants program
would award up to $60 million to         WHAT WE FOUND
unfunded meritorious projects pro-
                                         After awarding its first Recovery Act grants more than 2 years ago, NIST has established a
posed under a fiscal year (FY) 2008      generally effective construction grants program. Nevertheless, program processes are still under
competition and the remaining            development—and NIST risks not having appropriate and adequate monitoring processes in place.
$120 million based on a new compe-       Monitoring challenges that we found include:
tition. By January 2010, NIST
                                           Inadequate Controls Lead to Deficiencies in Award Administration. We detail how grant funds were
awarded more than $179 million in
                                           released improperly (without securing the government’s interest), financial and technical reports
Recovery Act funds to support the          were missing from official files, and prior audit reports were not consistently reviewed per the
construction of new research sci-          Single Audit Act.
ence facilities at 15 universities and
1 nonprofit research organization.         Construction Projects Are in Jeopardy of Not Being Completed on Time. Projects selected for review
                                           have not met Recovery Act objectives (including recent instructions to agencies to accelerate
With grant recipients’ matching            Recovery Act fund spending with final payments completed by September 30, 2013, unless
shares, the 16 projects were in-           granted an OMB waiver). Five projects (totaling $67 million in Recovery Act awards) may
tended to launch more than                 continue past the OMB deadline—and require immediate management attention. Also, NIST
                                           granted project time extensions without essential documentation, such as a statement of no
$400 million in new laboratory con-
                                           anticipated further delay and feasibility of project completion within a revised time schedule.
struction projects in 2009 and 2010.
                                           Lack of Program Guidelines and Incomplete Program Office Oversight Policies and Procedures Exist. The
                                           NIST program office’s construction grants procedures manual addresses some key areas but
                                           lacks financial and scientific review procedures. Also, NIST lacks a recipient program guidelines
Why We Did This Review                     handbook.
Since the announcement of Recov-           Noncompliance with the Buy American Act, and Other Recovery Act Rules, Presents Issues. We noted
ery Act funds appropriation, OIG           compliance issues that arose with reprieves granted to use non–U.S.-made devices without an
has provided oversight of NIST             official Buy American waiver—as well as the restriction agencies must follow to spend Recovery
administration of the construction         Act funds only on Recovery Act-related work.
grants program, including a Octo-
ber 2009 flash report that offered       WHAT WE RECOMMEND
recommendations for the pre-             Our recommendations to the Under Secretary of Commerce for Standards and Technology are
award phase. This review focuses         that he direct:
on post-award administration.
                                            The NIST grants office to address federal fund drawdown issues, as well as the review and
The objectives of this audit were to         reconciliation of all required reports in official grant files.
(1) determine the adequacy of the
                                            The NIST program office to (a) develop plans to address projects at risk of missing the
policies and procedures developed            September 30, 2013, deadline; (b) require other grantees to meet grant-specified deadlines
for Recovery Act construction                and/or submit proper extension requests to NIST; and (c) require grantees to submit all
awards; (2) determine whether NIST           extension request elements before finalizing its decisions.
has the personnel, processes, and
                                            The program office to strengthen its construction grants procedures manual and develop a
systems in place to monitor the pro-
                                             recipient handbook—as well as direct the grants office to instruct staff on the official role of
gram; (3) assess the adequacy of             the paper file used with their grants management system as it transitions to a new grants
monitoring activities; and (4) deter-        system (and strengthen internal controls on official file access).
mine whether the construction pro-
jects have proceeded according to           The program office to ensure Buy American compliance—and direct the grants office to
                                             establish a firewall to prevent the use of Recovery Act funds (should they become available)
their original proposals.
                                             on non-Recovery Act activities.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction........................................................................................................................ 1 

Findings and Recommendations ...................................................................................... 3 

   I. 	 Inadequate Controls Lead to Deficiencies in Award Administration ................ 3 

      A.	  Grant Funds Were Released Improperly, Without Securing the Government’s 

           Interest...............................................................................................................................................3
 
      B. 	 Financial and Technical Reports Were Missing.........................................................................4
 
      C. 	 Prior Audit Reports Were Not Consistently Reviewed ........................................................5
 
   II. 	 Construction Projects Are in Jeopardy of Not Being Completed on Time ...... 6 

      A.	  Projects Selected Did Not Meet All Recovery Act Objectives ............................................6 

      B. 	 Project Time Extensions Were Granted Without Essential Documentation ................ 10
 
   III.  Lack of Program Guidelines and Incomplete Program Office Oversight 

         Policies and Procedures Exist ............................................................................... 11 

      A.	  NIST Must Strengthen Program Office Policies and Procedures Manual to Ensure 

           Proper Financial and Scientific Reviews ................................................................................... 12
 
      B. 	 NIST Needs to Develop a Recipient Program Guidelines Handbook.............................. 13
 
      C. 	 NIST Grants Office Should Improve Procedures for Maintaining Official Award 

           Files .................................................................................................................................................. 13
 
   IV.  Noncompliance with the Buy American Act, and Other Recovery Act Rules, 

        Presents Issues ....................................................................................................... 15 

      A.	  Compliance Issues Arose with the Buy American Act ........................................................ 15
 
      B.  Other Compliance Issues Emerged with the Recovery Act ............................................... 16
 
Summary of Agency and OIG Comments .................................................................... 17
 
Appendix A: Objectives, Scope, and Methodology..................................................... 20
 
Appendix B: Recipient Information ............................................................................... 22
 
Appendix C: Agency Response....................................................................................... 23
 




                                                                                                                    COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters, 
                                                                                                                   by sculptor James Earle Fraser, 1934 
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL


Introduction 

On February 17, 2009, the President signed the American Recovery and Reinvestment Act of
20091 (the Recovery Act) into law. The Recovery Act appropriated $360 million to NIST to
construct research facilities, including—as announced in the June 1, 2009, Federal Register—
$180 million in competitive grants for the construction of research science buildings.2

With Office of Management and Budget (OMB) agreement, NIST’s competitive grants program
would award up to $60 million to unfunded meritorious proposals for “shovel-ready”3 projects
submitted under a previous competition held in fiscal year (FY) 2008 and the remaining $120
million based on a new competition. On July 20, 2009, and January 8, 2010, NIST awarded more
than $179 million in Recovery Act funds to support the construction of new research science
facilities at 15 universities and 1 nonprofit research organization (see appendix B).

Ultimately, the research targets range from offshore wind power, aquaculture, and marine
ecology to physics research and nanotechnology. With grant recipients’ matching shares, the 16
projects were intended to launch more than $400 million in new laboratory construction
projects in 2009 and 2010.

Since the announcement of Recovery Act funds appropriation, OIG has provided oversight of
NIST administration of the construction grants program, including the October 2009 flash
report NIST Construction Grants and NOAA Habitat Restoration Grants Are Competitively Awarded
but Improvements Are Recommended for NIST’s Selection Documentation, NOAA’s Management of
Applicant Risk, and Commerce’s Pre-Award Guidance on Background Checks (ARR–19841). For the
pre-award phase of construction grants administration, OIG recommended that NIST improve
its documentation of the evaluation board selection process to ensure clear documentation of
its financial assistance decisions.

Monitoring Challenges Facing NIST

To implement this program, NIST used the NIST Construction Grant Program (NCGP) to
manage all pre-award competition activities. The Grants and Agreements Management Division
(GAMD, or grants office) and the Office of Facilities and Property Management (OFPM, or
program office) are responsible for all post-award grants administration, program monitoring,
and oversight responsibilities. The grants office is part of the Office of Financial Resource
Management and handles the administration of grants at NIST.

Currently, OFPM provides oversight of 24 construction grant projects, 16 funded by the
Recovery Act and 8 funded by annual appropriations. OFPM is staffed with a federal program
officer (FPO) and contract support staff experienced in construction and engineering.
                                                            
1
  Pub. L. No. 111-5.
2
  74 Fed. Reg. 26213. Prior to the Recovery Act, only 3 awards totaling $30 million had been made under this
construction grant program in FY 2008.
3
  NIST created a questionnaire (OMB Control No. 0693-0054) for the initial round of Recovery Act funding with
the following first question: “Is the proposed project in your proposal ’shovel ready‘ consistent with the Recovery
Act objectives? If yes, explain.”


FINAL REPORT NO. OIG-12-020-A                                                                                         1
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL

Additionally, the program office created specific guidance documents to assist recipients with
Recovery Act requirements (e.g., ARRA Supplemental Buy American Guidance for NIST
Construction Grants, Clarifying Guidance for NIST ARRA Construction Grant Reporting). See
table 1 for some of the oversight responsibilities attributed to the program and grants office.

          Table 1. Grants Office and Program Office Oversight Responsibilitiesa

                                                                           Grants     Program
Oversight Responsibilities
                                                                           Office      Office

Maintain official award files                                                
Ensure recipient compliance with award conditions                            
Receive and review recipient financial reports                               
Review and approve or disapprove no-cost amendments,                         
including time extensions
Provide programmatic guidance/technical assistance to recipients                        
Establish programmatic policy                                                           
Review financial and performance or technical reports for consistency                   
with the approved project
Monitor project activities to ensure project goal achievement                           
Source: OIG, data obtained from the Department of Commerce (DOC) Grants Manual
a
  A checked box indicates the respective responsibility is with that office.

After awarding the first Recovery Act grants more than 2 years ago, NIST’s program processes
are still under development. NIST risks not having appropriate and adequate monitoring
processes in place. Monitoring challenges include the program’s complex operational aspects,
management of a significant contractor role in program implementation, and the need to
include Recovery Act requirements in existing program and administration processes.

Audit Objectives

The objectives of this audit were to (1) determine the adequacy of the policies and procedures
developed for Recovery Act construction awards; (2) determine whether NIST has the
personnel, processes, and systems in place to monitor the program; (3) assess the adequacy of
monitoring activities; and (4) determine whether the construction projects have proceeded
according to their original proposals.

See appendix A for details regarding our audit objectives, scope, and methodology.


 




FINAL REPORT NO. OIG-12-020-A                                                                     2
   DEPARTMENT OF COMMERCE
 U.S.                                                                 OFFICE OF INSPECTOR GENERAL


 Findings and Recommendations
I.   Inadequate Controls Lead to Deficiencies in Award Administration

 Effective grant monitoring decreases the risk of unauthorized expenditures and, consequently,
 the risk of fraud. Our review highlighted problems in the award implementation phase that
 could be improved, including:

     	 ensuring funds are not released prior to securing the government’s interest in real
        property,

     	 requiring the timely receipt and review of financial and technical reports, and

     	 using independent audit reports to help determine financial status and compliance with
        government requirements.

 A.	 Grant Funds Were Released Improperly, Without Securing the Government’s Interest

     Grant awards have conditions that require specific actions for complying with the grant
     award—or, in some cases, limit or prohibit other actions until the recipient meets the
     award condition. According to NIST Construction Grant Program General Terms and Conditions,
     one condition is that Recovery Act construction grant recipients need to execute a security
     interest in the real property; NIST will release no grant funds until recipients have complied
     with this provision, unless other arrangements satisfactory to NIST are made. The security
     interest document “Covenant of Purpose, Use and Ownership” requires that recipients:

     1. 	 not sell, transfer, convey, or mortgage any interest in the real property acquired or
          improved with funds made available through the award for the estimated useful life of
          the project without prior written approval of NIST (20 years);

     2. 	 not use the property for purposes other than the project purposes without the prior
          written approval of NIST; and

     3. 	 compensate the federal government for its interest in the property in the event the
          recipient uses the property for any other purposes—or sells, leases, transfers, conveys,
          or mortgages it without the prior written approval of NIST.

     During our file review, we noted that 2 of the 16 recipients were able to draw down federal
     funds—a total of $135,124 for one recipient and $114,443 for the other—without security
     interests (or other arrangements) in place. While both the grants and program offices were
     aware of the release of grant funds without an executed security interest, they did not stop
     recipients from drawing down funds or revoke recipient access to their funds disbursement
     account. After we informed the NIST program and grants offices, they took action to
     remedy these violations. Without adequate oversight of these important grants
     requirements, recipients would have access to their award funds without securing the
     government’s interest in those assets.


 FINAL REPORT NO. OIG-12-020-A                                                                       3
  DEPARTMENT OF COMMERCE
U.S.                                                                                     OFFICE OF INSPECTOR GENERAL

B. Financial and Technical Reports Were Missing

       NIST special award conditions (SAC) require recipients to submit financial and performance
       reports to the program officer and the grants officer on or before the tenth calendar day
       after the end of each quarter. Financial reports are reviewed, among other reasons, to
       ensure that recipients are expending funds at an appropriate rate and matching
       requirements are being met. Performance reports are reviewed for consistency with the
       approved project. We reviewed the official file for the inclusion of these reports for the
       first six quarters of the grant period. Out of 724 financial status reports due, 32 (44 percent)
       were missing from the official file and 17 (24 percent) were submitted late (up to nearly 4
       months). Out of 72 performance progress reports due, 41 (57 percent) were missing from
       the official file and 7 (10 percent) were submitted late (up to nearly 5 months; see figures 1
       and 2, below).


                          Figure 1.                                                    Figure 2.
                       Financial Status                                          Performance Progress
                     Reports (72 Reports)                                        Reports (72 Reports)

                                                               Timely                              Timely 
                                                               Reports (23 or                      Reports (24 or 
                                                               31.9%)                              33.3%)
                                                               Missing                             Missing 
                                                               Reports (32 or                      Reports (41 or 
                                                               44.4%)                              56.9%)
                                                               Late Reports                        Late Reports 
                                                               (17 or 23.6%)                       (7 or 9.7%)



       Source: OIG, from official NIST grant files

       Additionally, we found that the Automated Standard Application for Payments (ASAP)5
       withdrawals were not always verified against the financial status reports within 45 days of
       receipt as required by NIST Standard Operating Procedure 05-02. Out of the above-
       mentioned reports, 40 (55.6 percent) were not verified at all, and 4 (5.6 percent) were not
       verified within 45 days of receipt.

       Not having the required reports in the official files hampers NIST’s oversight efforts—
       especially its ability to determine whether recipients are performing according to plan or
       accountable for their spending.

                                                            
4
  Four 2009 awards and twelve 2010 awards required 6 and 4 quarterly financial status reports respectively. The
same reporting requirement applies to performance progress reports. In total, the official file should have
contained 72 financial reports and 72 performance progress reports.
5
  ASAP allows grantee organizations receiving federal funds to draw from accounts pre-authorized by federal
agencies.


FINAL REPORT NO. OIG-12-020-A                                                                                        4
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL

       We were informed by the NIST Grants Division Chief that high staff turnover and change in
       management have likely caused this lack of oversight. Subsequent to our meeting on August
       15, 2011, NIST informed us that it has received and reviewed all but three performance
       progress reports—and received and reviewed all financial status reports.

C.	 Prior Audit Reports Were Not Consistently Reviewed

       All grant recipients are subject to the Single Audit Act,6 which requires independent review
       of the recipient’s financial management, internal controls, and compliance with laws and
       regulations. During the pre-award phase, the Grants Management Information System
       (GMIS) Pre-Award Checklist Guideline requires the grants specialist to review the
       recipient’s most recent single audit report to determine the financial status of the company,
       as well as its compliance history of managing federal funds. The grants specialist repeats the
       single audit reviews, as part of the checklist, when the recipient requests funded or no-cost
       actions. An example of a no-cost action is an amendment for a time extension without any
       additional cost to the government. A funded action is the obligating of additional federal
       funds to an existing project.

       We noted that the files did not always contain information that a single audit review was
       performed and when it was performed. Out of 16 official award files, 3 did not contain
       single audit reports, and 2 grant files only had a single audit report from FY 2001 (although
       the grant was awarded in 2010 and more recent single audit reports were available.)
       According to NIST, GAMD does not have the staffing resources needed to perform all
       necessary single audit reviews. Inadequate reviews of recipient single audits may result in
       overlooking important findings adversely affecting recipients’ ability to manage government
       funding. For example, in one instance, the single audit found that a recipient had deficiencies
       related to tracking equipment and cost transfers, but that single audit was not in the official
       award file.

Recommendations
We recommend that the Under Secretary of Commerce for Standards and Technology direct
the NIST Grants Chief to:

       1. 	 strengthen internal controls to ensure that all appropriate award conditions are met
            before NIST allows the drawdown of federal funds;

       2. 	 develop adequate internal controls with regard to establishing review and reconciliation
            of all required reports in official grant files; and

       3. 	 ensure that (a) the most current single audit reports are reviewed, (b) the review is
            documented by the grants specialist, and (c) the report and review are kept in the
            official file to help determine financial status and compliance with government
            requirements.


                                                            
6
    31 U.S.C. §§ 7501-7507.


FINAL REPORT NO. OIG-12-020-A                                                                          5
    DEPARTMENT OF COMMERCE
  U.S.                                                                                  OFFICE OF INSPECTOR GENERAL


II.          Construction Projects Are in Jeopardy of Not Being Completed on Time

      A.	 Projects Selected Did Not Meet All Recovery Act Objectives

             According to the objectives of the Recovery Act, projects undertaken through its program
             were intended to result in the preservation of jobs and the promotion of economic
             recovery—and be commenced as quickly as possible, while ensuring prudent management.
             To attain this goal, NIST would select projects that were ready to proceed or “shovel
             ready.” In fact, to emphasize the original intent of the Recovery Act, OMB recently
             instructed grant-giving agencies (unless granted a waiver by OMB) to accelerate the
             spending of Recovery Act funds with final payments completed by September 30, 2013.7 We
             found that NIST construction grants funded by the Recovery Act are at risk of not meeting
             the Act’s objectives.

             The construction grant funding, as announced in the Federal Register, called for selection
             factors for use when vetting applications; the announcement highlighted that:

             	 NIST would consider the degree to which the applicant (1) proposes an early
                construction start date and/or (2) is close to (or has awarded) a construction contract
                for the facility. For example, an early start date for construction of a ready-to-proceed
                project may be considered more favorably than a project that requires a longer time to
                complete design requirements.

             	 Projects that are ready to proceed are generally those for which (1) feasibility studies
                and other baseline information required for a design to commence are completed; (2)
                required consultations and permits are, if not in hand, either in progress or there is
                reasonable assurance provided that they can be attained quickly; and (3) National
                Environmental Policy Act (NEPA) or equivalent analysis and any environmental permits
                and authorizations are finished, or can be expeditiously completed, so that projects can
                be implemented shortly after funding is made available.

             	 NIST would emphasize the selection of projects that are ready to proceed and will
                thereby stimulate the local economies through the creation or retention of jobs in U.S.
                jurisdictions, as well as yield significant program benefits.

             After selection, the awards are managed by the program office and the grants office. The
             program office—tasked with monitoring project activities to ensure goal achievement—
             maintains a NIST construction grants project master schedule, which tracks project
             scheduling such as design and construction periods, along with additional tasks. The
             schedule requires monitoring and continuous updates to reflect the accurate status of grant
             projects. The grants office maintains the official file that has the award documents indicating
             the grant’s beginning and end periods which includes grant period extensions.
                                                                  
      7
       On September 15, 2011, OMB issued M-11-34, Accelerating Spending of Remaining Funds from the American Recovery
      and Reinvestment Act for Discretionary Grant Programs, directing federal agencies to accelerate spending “consistent
      with existing laws and regulations and programmatic objectives. If those funds have not been spent by September
      30, 2013, agencies shall reclaim them to the extent permitted by law” (see page 2 of OMB M-11-34).


      FINAL REPORT NO. OIG-12-020-A                                                                                      6
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

    The projects selected have not yielded the results intended by the selection factors in order
    to meet the objectives of the Recovery Act. Projects have required extensions and spending
    levels are low.

    Of the 16 awards, 4 started in August and September of 2009; the remaining awards started
    in February 2010. At the time the awards were granted, most had initial award end dates
    before mid-2012, with only 1 award (University of Pittsburgh) scheduled to end past
    September 30, 2013 (see figure 3).

 




FINAL REPORT NO. OIG-12-020-A                                                                   7
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL


              Figure 3. Award Completion Timeframes 





 Source: OIG, based on NIST data.
 * 12 awards started 2/2010; ** 1 award started 8/2009; *** 3 awards started 9/2009;
  original award end date; — extension; – – multiple extensions;
  construction phase end date, based on master schedule;     construction/administrative closeout period;
 % (first line) when OIG obtained data (10/31/2011); %(second line) OMB deadline for spending (9/30/2013).

    We compared the dates on official award documents (7 awards have approved extensions)
    with the dates that the master schedule indicated for end of construction. We concluded
    that, considering required construction days in light of current grant end dates, extensions
    may become necessary for the remaining 9 awards. For example, according to official grant
    documents, Nova Southeastern University, Purdue University, University of Kansas, and
    Woods Hole Oceanographic Institute have grant end dates by January 2012. However,
    according to NIST’s October 31, 2011, master schedule, these grantees will not complete
    the construction phase of the grant until March 2012, April 2013, June 2012, and July 2012,
    respectively.

    Also, in addition to University of Pittsburgh, at least 4 projects—Purdue University, Auburn
    University, University of Maryland, and University of Miami (which originally had grant end
    dates before OMB’s deadline)—may continue past the September 30, 2013, deadline
    (specified in OMB M-11-34) when construction and closeout periods are factored in. These
    5 projects total $67 million in Recovery Act grant awards.


FINAL REPORT NO. OIG-12-020-A                                                                                    8
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL

    We noted that most delays were not due to unforeseen external conditions such as
    weather, existing site conditions, or material or labor delays. Instead, valuable time has been
    lost in part because of administrative issues; to execute security interests; to fulfill NEPA
    requirements; or to facilitate design agreements. According to NIST, recipients were
    awarded fixed price-contracts to carry out the projects. Nonetheless, schedule delays may
    increase costs, which are an issue in today’s constrained budget environment.

    These project delays have contributed to slow spending. As of October 31, 2011, only half
    of the recipients have drawn down more than one-third of their respective federal funds
    (see figure 4 for grant disbursements).


                           Figure 4. Recovery Act Construction 

                                  Grant Disbursements

             $16,000,000                                                                                     99%
             $14,000,000                                                                               91%
                                                                                                 87%
             $12,000,000
                                                                                           71%
             $10,000,000
   Dollars




              $8,000,000
                                                                           46% 48% 49%
              $6,000,000                                            37%
                                                              31%
              $4,000,000
                                                        21%
                                                  16%
              $2,000,000
                                 6%   9%   9% 13%
                     $0     0%




                    Award Amount           Disbursement Amount            Percent of Total Award Disbursed

  Source: OIG, based on federal Automated Standard Application for Payments (ASAP) drawdowns
  Disbursements are as of October 31, 2011; * Woods Hole Oceanographic Institute (nonprofit organization)


    When projects show indications of delays not pertaining to external factors, NIST should
    determine whether obstacles are preventing the Recovery Act projects from achieving
    timely completion. NIST should place more emphasis on these projects’ on-time
    completion, requiring recipients to devise an action plan for reducing the impact of
    identified delay risks—and recovering baseline schedule estimates contained in the grant
    agreement to the maximum extent possible—in order to hold projects to Recovery Act
    objectives.




FINAL REPORT NO. OIG-12-020-A                                                                                      9
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

B. Project Time Extensions Were Granted Without Essential Documentation

    The Department of Commerce (DOC) Grants Manual, Chapter 17 (Construction Awards),
    G.1, states that the recipient should submit to the FPO timely written extension requests
    (which “must ordinarily” be submitted at least 30 days prior to the award end date), which
    should contain certain elements (see table 2 below, which covers the seven extension
    requests as of August 2011). After review, the FPO recommends to the grants officer
    whether to amend the grant award with a new end date. A total of seven recipients
    requested and received amendments to extend their awards’ end dates (see figure 3 on
    page 8). Some extension requests were not timely; in fact, one of these recipients filed its
    written request 4 days after the initial award end date. None of the extension requests
    contained all the elements, such as a statement of no anticipated further delay and feasibility
    of project completion within a revised time schedule. While the FPO is aware of the project
    status as a result of recurring meetings with award recipients, those recipients should
    submit extension requests with all elements.

                     Table 2. Extension Requests Compliant with Department
                               of Commerce (DOC) Grants Manual

                                   Recipient   Recipient   Recipient   Recipient   Recipient   Recipient   Recipient
Element
                                      1a          2a          3a          4a          5a          6a          7a
Explanation of the recipient’s
inability to complete work by                                                                           
the specified date
Statement that no other
project changes are under            —           —           —            —           —           —          —
consideration
Budget for the remaining funds       —           —           —            —           —           —          —
Documentation of a continued         —           —           —            —           —           —          —
bona fide need for the project
Statement of no anticipated
further delay and feasibility of
project completion within
                                     —           —           —            —                      —          —
revised time schedule
Source: OIG

a
  A checked field indicates the respective element was present in the recipient’s extension request.


    The NIST Construction Grants Monitoring & Oversight Procedures manual does not provide any
    guidance on the approval of time extensions for the construction projects. According to
    NIST, the failure to timely process extension requests was an administrative oversight; the
    agency stated it will explore the legality of backdating and retroactive approvals that were
    granted. NIST further stated that administrative practices have been instituted by the
    program office and the grants office to ensure that these procedural violations do not occur
    in the future.




FINAL REPORT NO. OIG-12-020-A                                                                                     10
     DEPARTMENT OF COMMERCE
   U.S.                                                                             OFFICE OF INSPECTOR GENERAL

          The granting of extensions as a result of non-external factors should be rare. The program
          office providing oversight should ensure that risks are mitigated and these projects are
          completed on time.

   Recommendations
   We recommend that the Under Secretary of Commerce for Standards and Technology direct
   the NIST program office to:

          1.	 develop plans to accelerate the time schedule for the five projects either (a) scheduled
              for completion after or (b) at risk of being extended beyond September 30, 2013;

          2.	 require grantees of the remaining projects to accelerate construction work to meet the
              deadlines as specified in grant documents—or submit extension requests for NIST
              review; and

          3.	 require recipients to submit all elements in their extension request before making a
              decision to recommend or deny the request—as well as include extension guidance in
              the procedures manual.

III.	     Lack of Program Guidelines and Incomplete Program Office Oversight Policies
          and Procedures Exist

   GAO’s Standards for Internal Control state that “all transactions and other significant events
   need to be clearly documented, and the documentation should be readily available for
   examination. The documentation requirements should appear in management directives,
   administrative policies, or operating manuals and may be in paper or electronic form. All
   documentation and records should be properly managed and maintained.”8 NIST provided OIG
   the relevant program office procedures manual—compiled 30 months after the first
   construction grant award (non-Recovery Act) and 22 months after the first Recovery Act grant
   award. As this was a new program, NIST has had to develop and document procedures while
   managing 24 awards. According to the FPO, NIST has emphasized running the program, with
   not enough time devoted to the full development of written policies.

   Our review of the NIST Construction Grants Monitoring & Oversight Procedures manual determined
   that it addresses some of the requirements necessary for the successful implementation of the
   construction grants program. However, it is lacking in key areas, including program office
   procedures for financial and scientific reviews. Further, NIST should develop a recipient
   program guidelines handbook. Finally, NIST’s grants office should improve procedures for
   maintaining official award files.




                                                               
   8
    U.S. General Accounting Office, November 1999. Standards for Internal Control in the Federal Government,
   AIMD-00-21.3.1. Washington, DC: GAO, 15.



   FINAL REPORT NO. OIG-12-020-A                                                                               11
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

A.	 NIST Must Strengthen Program Office Policies and Procedures Manual to Ensure Proper Financial
    and Scientific Reviews

       Financial review procedures. Currently the program office employs oversight procedures
       including recurring meetings via conference call (usually at 5-week intervals), a fraud training
       session, and site visits. According to the NIST Construction Grants Monitoring & Oversight
       Procedures manual, site visits can occur at multiple times during the award implementation
       phase of the grant (the FPO holds an in-person kick off meeting after the grant is awarded).
       These early site visits have been deemed an effective way to catch potential construction
       problems, according to best practices identified by the Department of Justice in its February
       2009 Improving the Grants Management Process.9 While site visit guidance includes various
       reviews, the NIST manual underemphasizes the analysis of financial records.

       For example, there is little mention of the FPO’s role to ensure that the recipient maintains
       accurate accounting records and adequate support for its expenditures. During two of our
       four site visits, we requested that the recipient show us how the accounting records were
       used to prepare the expenditures on the financial status reports. In both instances, the
       recipient was not able to provide us the link between the approved budget’s spending
       categories and its accounting records while we were onsite. Each recipient ultimately sent
       us the required documentation but, with financial reports already filed with NIST, it should
       have been readily available. Requesting this type of financial documentation should be a
       standard oversight practice to ensure that recipients are not overdrawing funds and are
       providing the proper matching share.

       Currently, NIST relies on single audits (which, as we note in this report’s first finding, NIST
       inconsistently tracks and reviews) to monitor financial records. Recipients are not required
       to submit their annual single audit report until 9 months after the end of the organization’s
       fiscal year—allowing recipients to have receipt of federal funds for up to 2110 unaudited
       months. About $60 million has been disbursed as of October 31, 2011, with approximately
       $120 million of federal funds yet to be received by recipients. It is essential for program
       officers to know, beyond single audit reports, how recipients expend these federal funds—
       which support projects complex in scope and design and involving large costs, multiple
       vendors, and many specific building requirements (see figure 3 on page 8 for total awards
       and disbursements). Robust site visits can provide timely assurance of effective Recovery
       Act spending, by incorporating review of financial reporting and other compliance
       requirements as part of the overall monitoring plan.

       Postaward scientific review procedures. The Federal Register announcement stated that the
       scientific and technical merit of the proposed use of the facility is to be used as a grant
       proposal evaluation criterion. This entails scientists—familiar with the research related to
       the construction project’s purpose—rating the project proposal during the selection
       process. After this initial step, there are no more required scientific reviews. NIST policies
                                                            
9
  U.S. Department of Justice Office of Inspector General, February 2009. Improving the Grant Management Process,
4–5.
10
   The 21 months depends upon the recipient receiving award funds in the first month of the fiscal year—12
months in the fiscal year plus 9 months until the report is due.


FINAL REPORT NO. OIG-12-020-A                                                                                      12
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL

    and procedures do not include a formalized scientific review at later project phases; further,
    the construction grant program office has experts on construction but not on the science
    itself.

    The FPO stated that scientists are consulted when there is a need; however, we found
    there is no requirement for including scientists in subsequent reviews. Such scientific
    reviews were done inconsistently. For example: during the implementation phase, the
    program officer described consulting a NIST scientist when a grant recipient selected a
    deionizing water system for its project. In another example, when the recipient had a
    concern about interference with its labs’ vibration isolation systems, the project did not
    consult with a NIST scientist. The NIST Construction Grants Monitoring & Oversight Procedures
    manual should describe key indicators that would trigger a scientific review during the
    implementation phase to ensure consistent operations.

    Without full understanding by the FPO of the technologies relevant to the construction site,
    recipients may alter projects from their original proposals. With established documented
    procedures for scientist consultation, NIST would ensure that projects progress according
    to plan and project scopes remain unaltered in order to achieve the goals as intended.

B. NIST Needs to Develop a Recipient Program Guidelines Handbook

    NIST’s policies and procedures do not include a recipient handbook for the construction
    grants program. Although recipients can find grants criteria within the award terms, a
    handbook would clarify requirements during the grant’s implementation stage, preventing a
    misinterpretation of regulations and ensuring that recipients are following policies
    consistently.

    The Department of Commerce (DOC) Grants Manual states that the program office is
    responsible for providing recipients with programmatic guidance and technical assistance. In
    addition to showing a PowerPoint presentation covering many of the grant’s administrative
    and reporting requirements, the NIST FPO provides an in-person review with an overview
    and discussion of all award provisions, conditions, and terms—as well as technical,
    administrative, and reporting requirements—at the kickoff meeting for each Recovery Act
    grant recipient. However, these do not provide the detail often needed by recipients; they
    do not provide a reference tool in the way a detailed handbook would. For example, there
    are no details provided regarding the extension request elements. Not having adequate
    policies and procedures in place to manage this program will adversely affect NIST’s
    oversight capabilities.

C. NIST Grants Office Should Improve Procedures for Maintaining Official Award Files

    Electronic grants management system. We found that NIST no longer uses GMIS as the official
    grants file, which is once again a paper file. According to NIST officials, it was necessary to
    revert to paper because GMIS was no longer receiving the necessary upgrades. The grants
    officer stated that the paper file is the official file of record. Commerce, in the process of
    requiring all grants offices to use a Department-wide grants management system, is
    considering a management system called Grants Online.


FINAL REPORT NO. OIG-12-020-A                                                                    13
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL

    During this transition period there is no clear direction for when GMIS should be used or
    for what official purpose. Currently, an amendment to the grant must be administratively
    created in the GMIS system. In addition, some grant specialists are scanning images of the
    award documents into GMIS, even though it is no longer the official grant file. The grant
    specialists are required to keep all documents needed for official administration of the grant
    in the paper file.

    Award file structure. NIST Standard Operating Procedure (SOP) 01-01-A (revised 2003)
    states that personnel must file all correspondence (e.g., closeout letters and audit reports)
    in the applicable sections, annotating section cards with documentation filed under that
    section. We found that it was difficult to find documents within the file because personnel
    had not updated the section cards specific to these Recovery Act awards. The grants office
    has informed us that the current file organization structure is outdated and needs
    revamping.

    Missing file. Upon request, NIST could not produce for us the file for one recipient. We
    learned that NIST found the file after it was missing for a week. NIST maintains official files
    in an open space room in the grants office with general access. Its tracking system includes
    staff that scans files in and out of the file room; however, grants office personnel do not
    consistently utilize the system. NIST informed OIG that currently there is no SOP for
    scanning files in and out of the file room. We found that NIST is not fully complying with
    the requirements of the grants manual related to official file designation, structure, and
    stewardship. As a result, grant oversight could be hampered. Grants office management
    informed us that they plan to develop a solution to address this issue.

Recommendations
We recommend that the Under Secretary of Commerce for Standards and Technology direct:

    1. 	 NIST’s program office to strengthen its NIST Construction Grants Monitoring & Oversight
         Procedures manual so that it provides specific written guidance—including clarification
         and reference points regarding requirements for financial and scientific review;

    2. 	 NIST’s program office to develop a recipient handbook to help construction grant
         recipients complete their projects efficiently and in accordance with regulations
         governing federal grant assisted construction projects; and

    3. 	 NIST’s grants office to provide instructions to the grants staff on the official role of the
         GMIS system and the official paper files as it continues to transition to Grants Online,
         improve paper file structure, and strengthen internal controls on proper access to
         official grant files.




FINAL REPORT NO. OIG-12-020-A                                                                           14
    DEPARTMENT OF COMMERCE
  U.S.                                                                             OFFICE OF INSPECTOR GENERAL


IV.      Noncompliance with the Buy American Act, and Other Recovery Act Rules,
         Presents Issues

  A.	 Compliance Issues Arose with the Buy American Act

         The Recovery Act incorporated a “Buy American” provision,11 stipulating that a public
         building12 will not receive funding unless all of the iron, steel, and manufactured goods used
         in the project are U.S.–produced. Recipients may obtain waivers from the head of the
         department or agency if:

         1. 	 compliance would be inconsistent with the public interest;

         2. 	 the United States does not produce iron, steel, and other relevant manufactured goods
              in sufficient and reasonably available quantities or of a satisfactory quality
              (nonavailability); or

         3. 	 inclusion of iron, steel, and manufactured goods produced in the United States will
              increase the overall project cost by more than 25 percent.

         NIST is considering two waivers of the Buy American Act. One is a de minimis waiver
         allowing recipients to spend up to 5 percent of certain construction material costs on non–
         U.S.-made items. The second is a safety, interoperability, and security waiver allowing non–
         U.S.-made devices to be purchased as part of a pre-existing safety or security system.

         NIST has not officially announced its approval of these waivers in the Federal Register.
         Nevertheless, recipients were informed by the program officer they could install and track
         applicable parts as if a Buy American de minimis waiver has been granted. As explained,
         non–U.S.-made materials could be used up to 5 percent of total construction material costs
         (excluding costs such as mark-up, profit, or labor, tax). For example: a recipient was
         instructed to maintain a tracking spreadsheet of every non–U.S.-made item which would
         contain a description of the item, count, cost, and location where installed. In another
         instance, a recipient stated that NIST granted a global reprieve to use non–U.S.-made
         proprietary safety system devices.

         When we brought these issues to NIST management’s attention, the program officer
         informed recipients via e-mail that they should not presume any waiver until an official
         announcement. As a result of NIST not adequately enforcing compliance with the Buy
         American Act, recipients could be spending government funds inappropriately by purchasing
         items not made in the United States without approved waivers in place.




                                                              
  11
    The Recovery Act incorporated provisions of the Buy American Act. Pub. L. No. 111-5, Title XVI, § 1605.
  12
    The waiver would affect only the grant recipients with public buildings; 6 recipients out of 16 are private
  institutions and not subject to the Buy American Act.


  FINAL REPORT NO. OIG-12-020-A                                                                                   15
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL

B.	 Other Compliance Issues Emerged with the Recovery Act

       The Recovery Act further restricts the use of its funds and sets forth a statement of
       purposes and general principles on the use of funds.13 Generally, the United States Code,
       Title 31, Chapter 13, section 1301(a) states: “[a]ppropriations shall be applied only to the
       objects for which the appropriations were made except as otherwise provided by law.”

       NIST used Recovery Act funds to hire a contractor as a grants specialist to work solely on
       Recovery Act-funded construction grants. During our visit to the NIST grants office, we
       discovered that the contracted grants specialist worked on non–Recovery Act-funded
       construction grants while being compensated with Recovery Act funds. According to the
       grants officer, the lack of staffing on non-Recovery Act construction grants caused this to
       occur. It was the official’s intent to amend the contract but that official did not do so. NIST
       could not quantify the amount of time the contractor (no longer at NIST) spent on non-
       Recovery Act construction grants but estimates less than a week. Regardless of the time
       elapsed, appropriations law prohibits a Recovery Act-funded contractor to perform non-
       Recovery Act work.

Recommendations
We recommend that the Under Secretary of Commerce for Standards and Technology direct:

       1. 	 NIST’s program office to develop internal controls that ensure continued compliance
            with the Buy American provision, and

       2. 	 NIST’s grant office to establish a firewall to prevent the use of Recovery Act funds
            resources on non-Recovery Act activities and consult with Office of General Counsel to
            determine whether this use of funds violated the Anti-Deficiency Act.

 




                                                            
13
     Pub. L. No. 111-5, § 3.


FINAL REPORT NO. OIG-12-020-A                                                                         16
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL


Summary of Agency and OIG Comments 

We received, from the Under Secretary of Commerce for Standards and Technology, NIST’s
written comments on our draft report (see the entire memorandum from January 25, 2012, in
appendix C). For our final report, we have considered this response—and discussions held with
NIST after we issued the draft report—and made technical revisions deemed appropriate. NIST
agreed with the findings and recommendations and offered additional discussion points for
finding 1 (recommendation 1), finding II (recommendation 3), and finding IV (recommendation
2).

Finding 1, recommendation 1: Agency generally concurred. NIST stated that the premature
drawdowns of Recovery Act funds (without security interests in place) resulted from a
combination of failures: (a) by two recipients, who did not abide by award terms, and (b) by
NIST Grants and Agreements Management Division (GAMD), with a misinterpretation of the
terms. The agency agreed to take actions to avert similar occurrences in the future. NIST
asserted that the premature drawdown amounts were smaller than what we stated in the draft
report—and, after review of additional information from NIST, we revised these drawdown
amounts in this final report.

Finding 1, recommendation 2: Agency concurred. NIST agreed to "develop adequate internal
controls with regard to establishing review and reconciliation of all required reports in official
grant files." GAMD will make additional hires, and provide additional training, to assist grant
specialists in the effort.

Finding 1, recommendation 3: Agency concurred. NIST agreed to "ensure that (a) the most
current single audit reports are reviewed, (b) the review is documented by the grant specialist,
and (c) the report and review are kept in the official file to help determine financial status and
compliance with government requirements." More specifically, it agreed to reassign
construction awards to experienced federal grant personnel, in lieu of contractors (who are
less familiar with NIST standard operating procedures [SOPs] regarding review of A-133 audit
reports). In addition, any A-133 report findings will require a corrective action plan from the
recipient before the grants officer will issue an award amendment.

Finding 1I, recommendation 1: Agency concurred. NIST agreed to "develop plans to
accelerate the time schedule for the 5 projects either (a) scheduled for completion after or (b)
at risk of being extended beyond September 30, 2013." To that end, it is currently working with
award recipients and the Department to meet OMB’s M-11-34 requirements.

Finding 1I, recommendation 2: Agency concurred. NIST agreed to "require grantees of the
remaining projects to accelerate construction work to meet the deadlines as specified in grant
documents or submit extension requests for NIST review.” NIST is currently working with
award recipients to ensure they meet all schedule and award deadlines (and help them request
timely and fully-documented requests for no-cost time extensions when justifiable).

Finding II, recommendation 3: Agency generally concurred. NIST has agreed to create a
checklist to ensure grant recipients comply with the Department’s Grants Manual when


FINAL REPORT NO. OIG-12-020-A                                                                    17
  DEPARTMENT OF COMMERCE
U.S.                                                                   OFFICE OF INSPECTOR GENERAL

requesting no-cost extensions. However, NIST asserted that the Department does not require
grantees to submit all five supporting elements listed in the manual (see the five elements in
table 2 of our report). Based on NIST’s request, we revised the statement about the Grants
Manual to state that these supporting elements “should be” (but not “must be”) included in
extension requests for evaluation.

Nonetheless, we remain concerned with the lack of supporting information from grantees who
request extensions. As indicated in table 2, grantees overlooked four of five supporting
elements specified in the Department’s manual when requesting extensions. Providing these
elements, such as a statement indicating no other project changes are under consideration, may
help minimize further extension requests. NIST should specify more supporting elements for
grantees to submit in the new checklist.

Finding 1II, recommendation 1: Agency concurred. NIST agreed to "strengthen its NIST
Construction Grants Monitoring & Oversight Procedures manual so that it provides specific written
guidance—including clarification and reference points regarding requirements for financial and
scientific review."

Finding 1II, recommendation 2: Agency concurred. NIST agreed to "develop a recipient
handbook to help construction grant recipients complete their projects efficiently and in
accordance with regulations governing federal grant assisted construction projects." More
specifically, it agreed to issue supplemental clarifying instructions and guidance to recipients—as
well as increase onsite reviews of recipient reports and supporting documentation.

Finding 1II, recommendation 3: Agency concurred. NIST agreed to "provide instructions to
the grants staff on the official role of the GMIS system and the official paper files as it continues
to transition to Grants Online, improve paper file structure, and strengthen internal controls
on proper access to official grant files." To this end, GAMD will develop procedures for use of
its file management system, FileTrail—and provide specialists desktop access to the system.
GAMD will also reevaluate its SOP for the official award file (which still contains both the GMIS
file and the paper file) and, after ensuring consistency in both sets of requirements, provide staff
training after implementing any changes.

Finding 1V, recommendation 1: Agency concurred. NIST agreed to "develop internal
controls that ensure continued compliance with the Buy American provision." It continues to
develop and refine processes for ensuring recipient compliance with the Recovery Act’s Buy
American requirements, including further additions to its January 2011 supplemental guidance.
Further, NIST is currently finalizing program-wide Recovery Act Buy American waivers, which
it will publish in the Federal Register upon issuance.

Finding IV, recommendation 2: Agency partially concurred. NIST has contacted the Office of
General Counsel and NIST Budget Office to resolve the issue concerning use of Recovery Act
funds to help oversee non-Recovery-related projects. However, NIST does not consider it
necessary or cost-effective to establish a firewall to prevent recurrences as recommended.
NIST maintains that (a) it does not have access to additional Recovery Act funds and (b) all
expenses for administering and overseeing Recovery Act construction grants are borne by
regular NIST staff. We agree with the NIST proposal. However, should Recovery Act funds


FINAL REPORT NO. OIG-12-020-A                                                                       18
  DEPARTMENT OF COMMERCE
U.S.                                                              OFFICE OF INSPECTOR GENERAL

become available, such as through de-obligation of unused funds, NIST needs to strengthen
controls to ensure it not spend Recovery Act funds on non–Recovery-related work.




FINAL REPORT NO. OIG-12-020-A                                                               19
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope,
and Methodology
We initiated this audit in October 2010 as part of our continuing oversight of NIST’s
construction grant program. The objectives of this audit were to: (1) determine the adequacy of
policies and procedures developed for Recovery Act construction awards; (2) determine
whether NIST has the personnel, processes, and systems in place to monitor the program; (3)
assess the adequacy of monitoring activities; and (4) determine whether the construction
projects have proceeded according to their original proposals.

To satisfy these objectives, we reviewed NIST’s compliance with applicable laws, regulations,
policies, and procedures, including:

    • 	 The American Recovery and Reinvestment Act of 2009;
    • 	 Federal Financial Assistance Management Improvement Act of 1999;
    • 	 Department of Commerce (DOC) Grants Manual;
    • 	 NIST Construction Grant Program Special Award Conditions;
    • 	 Department of Commerce Financial Assistance Standard Terms and Conditions;
    • 	 NIST Construction Grant Program General Terms and Conditions;
    • 	 NIST Standard Operating Procedure 01-01-A (Revised 2003) for official award files,
        grants management information system, and financial reconciliation;
    • 	 NIST Standard Operating Procedure 05-02, “Procedures for Reconciling ASAP
        Withdraws & Financial Status Reports (SF-269) and Enforcement Actions for NIST
        Grants and Agreements Management Division”
    • 	 15 CFR Part 14 Uniform Administrative Requirements for Grants and Agreements with
        Institutions of Higher Education, Hospitals, Other Non-Profit, and Commercial Organizations;
    • 	 NIST Construction Grants Monitoring & Oversight Procedures Manual;
    • 	 American Recovery and Reinvestment Act (ARRA) Supplemental Buy American 

        Guidance for NIST Construction Grants; 

    • 	 GMIS Pre-Award Checklist Guideline (for Single Audit Review); and

    • 	 31 USC Chapter 13 – Appropriations 1301 (a).

To gain an understanding of NIST’s monitoring efforts and records management, we reviewed
grants monitoring procedures and interviewed pertinent staff, including:

    • 	 Grants Management Information System (GMIS);
    • 	 NIST Grants and Agreements Management Division (GAMD) personnel;
 


FINAL REPORT NO. OIG-12-020-A                                                                          20
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL

    • 	 NIST Office of Facilities and Property Management (OFPM) personnel; and
    • 	 NIST Construction Grants Program Office (NCGP) personnel.

To review the results of NIST’s monitoring efforts, we reviewed files of all 16 NIST Recovery
Act construction grant recipients, including:

    • 	 performance progress reports;
    • 	 financial progress reports;
    • 	 single audit reviews; and
    • 	 other document reviews including security interests, award extension requests, and
        official award file section cards (for file structure and organization).

For further review of the results of NIST’s monitoring efforts, we judgmentally selected four
recipients for site visits based upon the following selection factors: site proximity, level of
completion, and award amount. Our review included:

    •   financial
        	         reconciliation,
    • 	 Buy American and Davis Bacon compliance, and
    • 	 adherence to original proposal.

Regarding data reliability, we did not rely on computer-generated information for this audit.
The NIST grants officer informed us that its paper-based system was the official file of record.

We performed our work in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence that provides a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

We conducted our review from October 2010 through October 2011 under the authority of
the Inspector General Act of 1978, as amended and the Department Organization Order 10-
13. We performed our work at:

    •	 NIST in Gaithersburg, Maryland; and
    •	 Recipient locations in Atlanta, Georgia; Auburn, Alabama; Washington, DC; and 

       Lexington, Kentucky. 

 




FINAL REPORT NO. OIG-12-020-A                                                                      21
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL


Appendix B: Recipient Information 

                  Science Conducted at          Federal Award   Recipient Share   Total Project
Recipient
                    Research Facility              Amount          Amount             Cost
Columbia
                Global climate processes          $ 1,363,240     $ 1,363,240       $ 2,726,479
University
University of   Deep water offshore wind
                                                 $ 12,420,000     $ 2,971,410      $ 15,391,410
Maine           energy industry
Rice            Fundamental and applied
                                                 $ 11,130,018     $ 33,390,055     $ 44,520,073
University      physics
                Nanofabrication, electron
University of
                microscopy, and synthesis         $ 6,904,993     $ 6,904,993      $ 13,809,986
Nebraska
                and characterization
University of
North           Marine biotechnology             $ 14,979,888     $ 14,979,888     $ 29,959,776
Carolina
                Biomass and biofuels,
University of   distributed power generation
                                                 $ 11,832,685     $ 3,944,228      $ 15,776,913
Kentucky        and storage, and electric
                vehicles
Nova
Southeastern    Coral reef ecosystem             $ 14,990,071     $ 15,584,636     $ 30,574,706
University
                High-performance buildings
Purdue
                for systems related to           $11,750,000      $ 11,750,000     $ 23,500,000
University
                future-built environments
                Energy and transportation,
                global climate change,
University of
                composite materials              $ 12,275,527     $ 6,500,000      $ 18,775,527
Kansas
                technology, and sustainable
                building practices
Woods Hole      Sensor technologies for
                                                  $ 8,101,724     $2,025,436       $ 10,127,160
Institute       ocean observation
                Standards, measurement, and
Auburn          forecasting of the
                                                 $ 14,427,075     $ 14,427,075     $ 28,854,150
University      environment; biofuels, water,
                food quality, safety
                Soft matter research: liquid
Georgetown      crystals, gels, colloids,
                                                  $ 6,900,000     $ 48,829,184     $ 55,729,184
University      polymers, foams, granular
                matter.
                Energy efficient products and
Georgia Tech                                     $ 11,632,804     $ 11,632,804     $ 23,265,608
                sustainable energy sources
University of
                Advanced quantum science         $ 10,346,123     $5,173,061       $15,519,184
Maryland
University of   Power of hurricanes and the
                                                 $ 15,000,000     $ 28,764,462     $ 43,764,462
Miami           biology of coastal waters
University of
                Nanoscience and technology       $ 15,000,000     $ 12,751,516     $ 27,751,516
Pittsburgh
Total                                           $ 179,054,148    $220,991,988     $400,046,134
Source: OIG, based on NIST data




FINAL REPORT NO. OIG-12-020-A                                                                     22
  DEPARTMENT OF COMMERCE
U.S.                                                                                   OFFICE OF INSPECTOR GENERAL



Appendix C: Agency Response 

                                                              UNITED STATeS DEPARTMENT CF COMMERCE
                                                              National I~ af Standard• and Technology
                                                              GaittltnJ;Jurg. ~ 20899-
                                                              0FfiCE OF THE DIRECTOR




            JAN 2 5 20t2


          MI::.MORANDUM FOR Ann C. Eilers
                            Principal In~jtor~raJ for Audit and Evaluation

          hom:          Patnck Gallagher    ~
                        Under Sccrewy of Co merce for Slalldards and Technolog)

                        NIST Response to the draft report, Oversight Actt\•ities ofNIST'.r &covery Act
                        Constrru:/ion Gront Au ords Are Generolly Fjfective hut Ne1d lmprov'm'nf

          Thank you for the opportunity to review the Office ofiJUpector General (OIG) draft report,
          o. .ersight Activities ofVIST's Rtcow!ry Act Constmctlon Gr(IJit Awards A1t General/} Eflecth-tt
          but Need lmpro\'tmtnt. dated December 22,2011 Staff from the National lnslllute ofStnndards
          and Technolo;.y's (NISl) Office ofFaciliti~ and Property \ofanagemtnl (OFPM) and Grants and
          Agreements Management Division (GA MD) have reviewed the draft report and offer the
          comments in the attached document. NIST concurs with the majority of the recommend3tion,

          If you have any questions, please contact Rachel Kmney at (301) 975-8707.

          AtlllCbment




                                                                                                       NI.Sr


FINAL REPORT NO. OIG-12-020-A                                                                                  23
  DEPARTMENT OF COMMERCE
U.S.                                                                                 OFFICE OF INSPECTOR GENERAL



                                    Office of Inspector General Draft Repon

          (ftqsighl Actnntles ofl-IST'' RecO\·try Act Construction Grant Awards are Generally EjJecllve
                                            but Need Improvements

            National Institute or Standard• and Teebnology (NISD Re1noMl' to Rc:~ommentlaliops

         Section I Recommendations:

         "We recommend that the Under Secretary of Commerce for Standards and Technology direct the
         NIST Grants Chief to:"

         Reeommendanon I: wstrenglhcn internal controls to ensure that all appropnate awnrd conditions
         are met befon: NJST allows the dta"down of federal funds-.

         NIST Response.
               NlST genemlly agrees "ilb thu findmg, subject to the discussion below concerning the
               dollar amounts referenced in Section I.A. of the draft audit report (page 3). NIST notes
               that the award conditions penaining to American Recovery and ReiO\estment Act of
               2009 (Recovery Act) construction projects, includjng the proper application and
               interpretation of the security interest and National Environmental Policy Act (NEPA)
               requirements as well as the proper use of eldstlng internal controls (e.g., restrictions on
               i\utomaled Standard Application for Pa)mcnt (ASAP) drawd.0\\1lS by m:ipients)
               designed to aven smlilar occurrences in lhe future, have been reviewed and discussed in
               detail with the NIST Grants Officer and NlST Grant SpccialtSts !bsigned to Recov~ Act
               construction grants, NlST program office S1aff and contractors. and wtth the Office of
               Geneml Counsel (OGC) Federal Assistan« Law Divtsion (FALD) NlST further notes
               that the security mterest and NEPA requirements for all 16 ARRA construction a'.l.urds
               are complete and that there are no recipients currently subject to drawdown restrictions.
                Tbe premature drawdowns by two of the 16 Recovery Act \onslruction Grants
                ReCipients resulted from a combination of a failure by the two rectpients to abide by the
                award terms c:onc:errting disbursements ofNlST a"nrd funds and from a misinterpretation
                of the securi ty interest and NEPA tenns and conditions of the award by lhe Grants and
                Agreements Management Dhislon (GAMD). GAMD concluded tba.t the recipients "ere
                authorized to drawn down fundJng for non-construenon purposes, such as design and
                engineering, prior to the recipient's satisfaction of the security interest requirements. Tbe
                funding drown down by the two recipients was for non-construction purposes.
                At the time of the drawdowns, the f\\'0 recipients in question were in the process of
                finalizing the security interest documentation in consultation with the FALD and legal
                counsel for the rectpients The progress and StatUS ofthese efTons were being closely
                monitored by GAMD at NIST. The security interest documentation was actuaiJ)' executed
                and recorded by boUt rec:iptents in December 2010. As a result, drawdowns after
                December 2010 ocx:urrcd after the security interest documenllltion was executed and
                recorded by each recipient, but prior to the corresponding award amendment being issued
                by NIST. lmponantly, the Federal interest in each project was protected upon execution

                                                     Page I of 6




FINAL REPORT NO. OIG-12-020-A                                                                                   24
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-12-020-A                           25
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-12-020-A                           26
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-12-020-A                           27
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-12-020-A                           28
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




                                              ARRA000-107




FINAL REPORT NO. OIG-12-020-A                           29
